Secured Credit
Card Agreement
and Truth-inLending Disclosure

24-Hour Loan Center: 866.933.6333
MichiganFirst.com

Federally insured by the
National Credit Union Administration.

2196-VISA-005-SEC

Secured.VISA.Truth.In.Lending.12.2020.pdf 1

06/25/21 5:06 PM

To use this right, all of the following must be true:
1.The purchase must have been made in your home state or within
100 miles of your current mailing address, and the purchase price
must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods
or services.)
2. You must have used your credit card for the purchase. Purchases
made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing [or electronically] at:
Michigan First Credit Union
27000 Evergreen Road
Lathrup Village, MI  48076
While we investigate, the same rules apply to the disputed amount as
discussed above or on previous page. After we finish our
investigation, we will tell you our decision. At that point, if we think
you owe an amount and you do not pay, we may report you as
delinquent.

Revised 06/2021
13

Secured.VISA.Truth.In.Lending.12.2020.pdf 2

06/25/21 5:06 PM

You must notify us of any potential errors in writing. You may call us,
but if you do we are not required to investigate any potential errors and
you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already corrected
the error.
2.Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
• After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount
in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the
date payment is due. We may then report you as delinquent if
you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to pay. If
you do so, we cannot report you as delinquent without also reporting
that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the
first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the purchase.

12

Secured.VISA.Truth.In.Lending.12.2020.pdf 3

THIS IS YOUR AGREEMENT WITH MICHIGAN FIRST CREDIT
UNION
(CREDIT
UNION)
REGARDING
RIGHTS
AND
RESPONSIBILITIES ASSOCIATED WITH OBTAINING A SECURED
VISA® CREDIT CARD. THE DISCLOSURE STATEMENTS THAT
FOLLOW ARE REQUIRED BY FEDERAL REGULATIONS,
INCLUDING THE TRUTH IN LENDING AND FAIR CREDIT BILLING
ACTS. PLEASE READ THIS DISCLOSURE CAREFULLY TO BE
FAMILIAR WITH YOUR RIGHTS AND RESPONSIBILITIES. IT IS
IMPORTANT TO RETAIN THIS NOTICE FOR FUTURE REFERENCE
AND TO NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.
1. WORDS OFTEN USED IN THIS AGREEMENT. The word
“Agreement” means this Michigan First Credit Union Credit Card
Agreement and Truth-In-Lending Disclosure and the document provided
to you along with this agreement and disclosure containing Credit
Card Account Opening Disclosures and information concerning How
Your Annual Percentage Rate is Determined. In this agreement, the words
“you” and “your” mean or refer to each and all persons who have applied
for the Card or Cards. “Card” means the Visa Credit Card or Cards,
and any duplicates and renewals thereof, or substitutions thereof, we
may issue to you. “Account” means your Visa Credit Card line of credit
loan account with us. “We,” “us” and “ours” means or refers to Michigan
First Credit Union and the document provided to you along with this
agreement and disclosure containing Credit Card Account Opening
Disclosures and information concerning How Your Annual Percentage
Rate is Determined.
2. THIS IS YOUR CONTRACT WITH US. Once this agreement is sent
to you, it becomes a binding contract. When you (i) signed a paper
application for your account, (ii) completed an online application for your
account, (iii) applied for your account by calling our Call Center, or (iv)
applied for your account in person with one of our Financial Services
Representatives, you acknowledged that you would receive a copy of this
agreement and promised to abide by the terms of this agreement, including
applicable laws. This agreement is a Truth-In-Lending Disclosure Statement
as well as a contract.
3. SIGN THE CARD. Your card(s) have been imprinted as you have
directed. Each card must be signed (in the space provided on the back) by
the person whose name is imprinted thereon. That signature must be in the
same form as imprinted on the front of the card. However, your liability
under this agreement does not depend on whether you sign your card.
4. USING THE CARD. By using this card, you are agreeing to comply
with the terms of this agreement. To make a Purchase or Cash Advance,
present the card to a participating Visa plan merchant or financial institution
and sign the sales draft or cash advance draft (when required) which will be
imprinted with your card or generated after

1

06/25/21 5:06 PM

42. ENTIRE AGREEMENT/EFFECT OF AGREEMENT. This
Agreement, together with any application you signed or otherwise
submitted in connection with the Account and any mailer/document sent
to you with your Card(s) (all of which are hereby incorporated
by reference in this Agreement), constitutes the entire agreement between
you and us relating to your Account, supercedes any other prior or
contemporaneous agreement between you and us relating to your
Account, and applies to every transaction relating to the Account even
though a sales or cash advance draft you sign or a credit slip may contain
different terms. This Agreement may not be amended except in
accordance with the provisions of this Agreement. You further
acknowledge receipt of a copy of this Agreement.
43. CREDIT UNION MEMBERSHIP. You understand and agree that
the closing of your Credit Union Regular Share Account terminates your
status as a member of the Credit Union, and upon such closing, you can
no longer obtain credit with the Credit Union Visa Card.
The following is important information regarding your right to dispute
billing errors.
Your BILLING Rights –
Keep This NOTICE For Future Use
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Michigan First Credit Union
27000 Evergreen Road
Lathrup Village, MI 48076

In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you think is
wrong.

2

Secured.VISA.Truth.In.Lending.12.2020.pdf 4

11

06/25/21 5:06 PM

34. SECURITY INTEREST. If you separately signed a document
entitled SPECIFIC PLEDGE OF SHARES TO SECURE CREDIT
CARD ACCOUNT, you grant us a security interest as set forth in that
document to secure your Account. There is no other security for your
Account.
35. BUSINESS DAY. Our business days are Monday through
Friday. Saturdays, Sundays and federal holidays are excluded.
36. GOVERNING LAW. The Agreement and your Account and any
claim, dispute, or controversy arising from or relating to this Agreement
or your Account, whether based on contract, tort, fraud, and other
intentional torts, statute, common law and/or equity, are governed by and
construed in accordance with the laws of the State of Michigan (without
regard to its conflicts of laws principles or rules) and applicable federal
laws. The legality, enforceability and interpretation of this Agreement and
the amounts contracted for, charged and received under this Agreement
will be governed by such laws. This Agreement is entered into between
you and us in the State of Michigan, and we make credit decisions under
this Agreement from the State of Michigan. You further consent to the
jurisdiction and venue of the State or Federal Courts having jurisdiction
over the City of Lathrup Village, Oakland County, Michigan.

37. ASSIGNMENT. We may sell, assign or transfer all or any portion
of your Account, or any balance due under your Account, without
prior notice to you. You may not sell, assign or transfer your Account
or any obligations under this Agreement.
38. LOST/STOLEN CARDS. You agree to notify us immediately
upon discovering that your Card has been lost or stolen by calling us at
866.820.2946 or 800.664.3828.
39. INFORMATION ABOUT YOU AND YOUR ACCOUNT. We
will not disclose your non-public personal information to unaffiliated
third parties except as otherwise permitted or authorized by law. Please
refer to our Privacy Policy Notice for a full explanation of how we
protect your information. You may obtain a copy of our Privacy Policy
Notice by calling us at 800.664.3828.
40. BENEFITS AND PROGRAMS. We may from time to time offer
additional services to your Accounts or special programs related to you
being a Cardholder, such as travel accident insurances, at no additional
cost to you. You understand and agree that we are not obligated to offer
such services or programs and may withdraw or change them at any
time.
41. SEVERABILITY. If any provision of this Agreement is
determined to be void or unenforceable under applicable law, regulation,
or rule, all other provisions of this Agreement shall be valid and
enforceable.

10

Secured.VISA.Truth.In.Lending.12.2020.pdf 5

10. PAYMENTS. We will send you a statement every month showing
your Previous Balances of purchases and cash advances, the current
transactions on your account, the remaining credit available under your
Credit Line, the New Balances of purchases and cash advances, the Total
New Balance, the FINANCE CHARGE(S) due to date, and the
Minimum Payment required. Every month you promise to pay at least
the Minimum Payment on or before the due date shown on your
statement. A late payment fee (as set forth in the fee schedule included
with this Agreement) will be charged if the required minimum payment
due under this Agreement is not received on or before the tenth day after
its due date. You may, of course, pay more frequently, pay more than the
Minimum Payment, or pay the Total New Balance in full, and you will
reduce the FINANCE CHARGE(S) by doing so. The Minimum Payment
will be either (a) 3% of your Total new Balance (rounded to the nearest
dollar), or $25.00, whichever is greater, or (b) your total New Balance,
3

06/25/21 5:06 PM

if it is less than $25.00 plus (c) any portion of the Minimum Payment(s)
shown on prior statement(s) which remains unpaid. In addition, at any
time your total New Balance exceeds your credit limit, you must
immediately pay the excess upon our demand. Any payment check or
other form of payment that you send us for less than the full balance due
that is marked “paid in full” or contains a similar notation, or that you
otherwise tender in full satisfaction of a disputed amount, must be sent to
Michigan First Credit Union, 27000 Evergreen Road, Lathrup Village,
MI 48076. We reserve all our rights regarding these payments (e.g., if it
is determined that there is no valid dispute or if any such check is
received at any other address, we may accept the check and you will still
owe any remaining balance). We may refuse to accept any such payment
by returning it to you, not cashing it, or destroying it. All other payments
that you make should be sent to the appropriate payment address.
The Credit Union at its sole discretion, may give you the option of
skipping one or more monthly credit card payments during the calendar
year. If you are eligible to skip a payment for any given month the
minimum monthly payment shown on your periodic statement will be
zero. If you do so, interest charges on outstanding balances will continue
to accrue during those months, but late charges will not be applied.
Here’s the best part - you don’t even need to apply.
11. PAYMENT ALLOCATION. We may select and change the
method by which payments and credits are allocated to your account at
our sole discretion; however, payments will be allocated to billed
amounts before they are allocated to unbilled amounts (transactions
incurred since your last statement) and payments amounts in excess
of the required minimum monthly payment will be applied to higher rate
balances before they are applied to lower rate balances. Payment for
more than the minimum amount due will be accepted as a single payment
for the month; the amount over the minimum is not applied toward future
payments due.
12. FINANCE CHARGE(S). Your account is subject to a variable
rate. Your ANNUAL PERCENTAGE RATE (APR) may increase or
decrease if the Index used by the Credit Union increases or decreases.
The Index is the highest rate of interest indentified as the “Prime Rate” in
the “Money Rates” section of The Wall Street Journal on the third
business day preceding the end of the most recently concluded calendar
quarter. To determine the ANNUAL PERCENTAGE RATE that will
apply to your account, a Margin is added to the value of the Index. Your
Margin and the required disclosures of your ANNUAL PERCENTAGE
RATE and corresponding monthly periodic rate are set forth in the “How
Your Annual Percentage Rate is Determined” section of the separate
document provided to you referred to in Section 1. The ANNUAL
PERCENTAGE RATE can change quarterly on the first day of the
billing cycles which begin in the months of January, April, July, and
October. There is no limit on the amount by which the ANNUAL
PERCENTAGE RATE can change except that the ANNUAL
PERCENTAGE RATE will never be more than 25.00%. In no event will
the rate ever exceed the maximum rate permitted by law. Any change in
the ANNUAL PERCENTAGE RATE affects your entire balance and is
effective at the beginning of the first billing cycle which follows the
change. The Credit Union reserves the right to substitute a
4

Secured.VISA.Truth.In.Lending.12.2020.pdf 6

agree to pay any related charges that are imposed as a result of
your use of the Visa Credit Card or an ATM.

completed if any of the following circumstances apply:
• Through no fault of ours, you do not have sufficient funds
available in your credit line;
• The transaction would cause you to exceed your credit limit;
• The ATM where you are requesting a cash advance does not have
enough cash;
• The terminal or system was not working properly and you knew
of the malfunction at the time you initiated the transactions;
• Circumstances beyond our control (such as fire or flood) prevent
the transaction, despite reasonable precautions we have taken;
• Your Card is retained by the ATM;
• Your Card or PIN has been reported lost or stolen and your
account has been blocked or frozen;
• Your account is in default;
• You or anyone authorized by you to conduct a transaction
commits fraud or violates any laws or regulations; or
• You fail to follow the instructions on the screen or terminal.
32. LIABILITY FOR UNAUTHORIZED USE. You may be liable
for the unauthorized use of your credit card. You will not be liable for
unauthorized use that occurs after you notify Michigan First Credit
Union at the address or telephone number set forth below. You must
notify us orally or in writing of the loss, theft, or possible unauthorized
use. In any case, your liability will not exceed $50.00. Notify us at:

Card Services Dispute Processing
P.O. Box 37035
Boone, IA 50037
866.820.2946
OR
Michigan First Credit Union
27000 Evergreen Road
Lathrup Village, Michigan 48076
800.664.3828

33.LIMITATIONS OF RESPONSIBILITY. We will not be
responsible for merchandise or services purchased by you with the
Card(s). We are not liable for the refusal or inability of merchants,
financial institutions and others to accept your card(s) or electronic
terminals to honor them or complete a transaction, or for their retention
of the Card(s).

9

06/25/21 5:06 PM

unless you can provide us with the merchant’s
cancellation number.
• Recurring Transactions – If you authorize a merchant to charge
your Account for repeat transactions without your Card, you must
notify the merchant, and not us, when you want to discontinue the
repeat transactions.
• Dispute Access – If you disagree with a transaction on your
statement or have a dispute with a merchant as a result of a
transaction, you agree to provide us with information and
assistance we reasonably request. Otherwise, you will pay us for
any resulting loss we have, unless we are prohibited by law from
holding you liable for our loss.

27. CARD AGREEMENT. You understand that your Visa
Credit Card is issued by us, remains our property, and is subject to rules
governing ATM networks, which financial institutions must follow. The
Cards are not transferable. By using your Card, you are agreeing to the
following additional terms: (1) To abide by the rules and regulations and
those of the participating ATM network as may be amended; (2) That we
and the ATM network may follow all electronic instructions given through
the ATM; (3) that we may restrict the use of or terminate your Card at any
time without notice to prevent loss to your account or to the Credit Union;
(4) your Card may not be used for any illegal transaction.
28. DAILY LIMITS. You agree to adhere to any daily limits established
by the Credit Union in conformance with the ATM network agreement
and which are subject to modification to preserve the integrity of the ATM
network and prevent loss to the Credit Union or its members. The current
daily limit is $800.00, the credit union may change this limit in its discretion
and without prior notice.
29. PERSONAL IDENTIFICATION NUMBER (PIN). Upon request
we will furnish you with a Personal Identification Number (PIN).
You agree to keep the PIN confidential. You also agree you won’t write the
PIN on the Card or anything you keep with the Card. Your use of the PIN
and Card in getting a Cash Advance or making a Purchase is
agreed to constitute your signature for purposes of such transactions.
You can also use your card together with your Personal Identification
Number (PIN) to get a Cash Advance from an Automated Teller Machine
(ATM) in the Visa Network, to get a Cash Advance from a Visa
financial institution, or to make a Purchase from a merchant that uses
the Card in an electronic terminal that accesses the Visa system. IF
YOU FORGET OR DO NOT ENTER YOUR PIN CORRECTLY,
THE ATM MAY KEEP YOUR CARD THE THIRD TIME THE
PIN IS ENTERED INCORRECTLY. THIS PROCEDURE IS FOR
SECURITY MEASURES. KEEP YOUR PIN IN A SECRET PLACE. If
you authorize us to issue a Card to anyone else for use through any
electronic access device, you are authorizing that individual to withdraw
funds from any account which can be accessed by that Card, regardless
of whether that individual is authorized to withdraw money from the
account by any other means.
30. FEES AND CHARGES. You agree to pay the various fees and
charges with respect to your Account as set forth in the fee schedule
included with this Agreement or as otherwise provided to you. You agree to
pay any related charges that are imposed as a result of your use of the Visa
Credit Card or an ATM.
8

Secured.VISA.Truth.In.Lending.12.2020.pdf 7

similar index if the index described above becomes unavailable. The
FINANCE CHARGE(S) is calculated by applying the above periodic
(monthly) rate to the Average Daily Balance (including new purchases).
An “Average Daily Principal Balance” is calculated separately for
purchases and cash advances and is determined as follows: For each day
during the statement period (billing cycle) the principal balances of
purchases and of cash advances from the previous day are increased by
any purchases or cash advances posted to the Account that day and
decreased by any payments or credits posted to the Account that day.
Such daily principal balances are separately totaled and then divided by
the number of days in the statement period (billing cycle), resulting in
the “Average Daily Principal Balances” of purchases and cash advances
shown on your statement. You can avoid FINANCE CHARGE(S) on
purchases by paying the full amount of the New Balance of Purchases
each month on or before the payment due date shown on your monthly
statement. Otherwise, the New Balance of Purchases, and subsequent
purchases from the date they are posted to your account, will be subject
to FINANCE CHARGE(S), except that if during the previous billing
cycle you paid all amounts owing in full by the Payment Due Date, then
in the current billing cycle you will have a free interest period
on the amount of the New Balance of Purchases remaining from the
previous billing cycle that is paid by the Payment Due Date based on our
payment allocation method.
13. PERIODIC STATEMENTS. We will send you a statement
every month showing your previous balance, purchases and cash
advances, payments made on your account, periodic rate, annual
percentage rate, finance charge and its method of computation, any
other charges, free interest period, payment due date, procedures
for error resolution, Minimum Payment required, and the closing
date with corresponding New Balance for the billing cycle. You may
not receive a statement on your Account if there has been no activity
or if collections procedures have been initiated against you because
you are in default. Each statement is deemed to be a correct
statement unless you establish a billing error pursuant to the Federal
Truth in Lending Act as described in this Agreement.
14. DEFAULT. You will be in default and we may, to the
extent permitted by law, terminate your credit line and declare the entire
unpaid balance of the account immediately due and payable, under any
of the following conditions:
• you fail to make the minimum payment by the statement
payment due date;
• you breach any other promises made in or conditions of the
Agreement and/or any other agreement with us;
• you use your card for an illegal transaction;
• if you become involved in any insolvency, receivership,
guardianship, conservatorship, or any other proceeding which
determines you are incapable of managing your financial affairs,
including filing for Bankruptcy;
• you have made a false or misleading statement in your credit
application and/or in your representation to us while you owe
money on your account;
• a judgment or tax lien is filed against you or any attachment
or garnishment is issued against any of your property or accounts,
5

06/25/21 5:06 PM

including anyone starting an action or proposing to seize any of
your funds on deposit with us;
• we in good faith determine that your creditworthiness (which
includes your ability to repay us) has become unsatisfactory due to
change in employment, increase in your other obligations, or because
of any other reason, time being of the very essence;
• you die; or
• government action precludes us from imposing the annual percentage
rate or a government authority has notified us that continued advances
constitute an unsafe and unsound practice. In the event of any default,
we may, at our option, declare the entire balance on the Account to be
immediately due and payable. If you are in default we may, instead of
terminating your Account and declaring the entire unpaid balance due
and payable, suspend your credit privileges but not declare what you
then owe immediately due and payable. If we do the latter, we reserve
the right to later terminate the Account and declare the entire unpaid
balance due and payable at any time before you cure the default by
paying all past due amounts.
15. COLLECTION COSTS. You also agree that, in case of default, you
will pay all usual and customary costs of collection permitted by law,
including, but not limited to, attorney fees and expenses incurred by us in the
enforcement of this agreement.
16. DELAY OR FAILURE TO ENFORCE. We do not lose our
rights under this or any related agreement if we delay or fail to enforce them.
We can accept late payments or partial payments without losing any of our
rights under this Agreement.
17. NOTIFICATION OF ADDRESS CHANGE. You agree to
notify us promptly if you change your name, street address, email
address or telephone number.

18. ADDRESS FOR NOTICES TO US. All notices under this

Agreement must be in writing and mailed to Michigan First Credit Union,
27000 Evergreen Road, Lathrup Village, Michigan 48076.

19. CHANGE IN TERMS. From time to time, we may amend this
Agreement by mailing a written notice of the amendment to you at the last
address shown for you in our records. In the event the terms we are
changing require advance notice by law, we will comply with the
requirements of that law.
20. YOU MAY CANCEL THE ACCOUNT. You may cancel the account
whenever you choose. If you do, you agree to cut each Card in half and
return it to us at the address shown in Section 18 above, along with your
written notification that you wish to cancel the Account. Such cancellation
will become effective within five days after the notice is received by us. You
will still be responsible for the repayment of any outstanding balance on
your Account and any other amounts that have not yet been billed to you.
21. WE MAY CANCEL THE ACCOUNT. We have the right to
cancel the Account at any time upon written notice sent to you at the last
address shown for you in our records. You agree to discontinue the use of
the Cards, and to return the Cards to us, at our request.

6

Secured.VISA.Truth.In.Lending.12.2020.pdf 8

22. CREDIT REPORTING AGENCIES. You authorize us to
investigate your credit standing when opening, renewing or reviewing
your Account, and you authorize us to disclose information regarding our
experience with you under this Agreement to consumer reporting
agencies, bureaus and other creditors. If you request it, we will provide
the name and address of each consumer reporting agency used for this
purpose. If you believe we have reported inaccurate information about
you to a consumer reporting agency, please notify us at Michigan First
Credit Union, 27000 Evergreen Road, Lathrup Village, Michigan 48076.
In doing so, please identify the inaccurate information and tell us why
you believe it is incorrect. If you have a copy of the credit report that
contains the alleged inaccurate information, please send us a copy of that
report as well. You are hereby notified that negative information will be
provided to appropriate consumer reporting agencies if you fail to
perform your obligations under this agreement.
23. TRANSACTION SLIPS. Your periodic statement will
identify the merchant, electronic terminal location, or financial institution
at which transactions were made. You must retain the copy of such slips
furnished at the time of each transaction in order to verify the transactions
listed on your statement as transaction slips cannot be provided by
Michigan First Credit Union.
24. CREDITS. If merchants who honor your Card give you a
credit for returns or adjustments, they will do so by processing a credit
which we will post to your Account. You should keep your copy of the
credit slip to verify your monthly statement. If your credits and payments
exceed what you owe us on the Account we will credit such excess to the
Account and, if the amount is $1.00 or more, we will credit it to your
share account after two (2) months or upon your written request.
25. FOREIGN TRANSACTIONS. Purchases and cash
advances made in foreign countries and foreign currencies will be billed
to you in U.S. dollars. The exchange rate for transactions in a foreign
currency will be a rate selected by Visa from the range of rates available
in wholesale currency markets for the applicable central processing date,
which rate may vary from the rate Visa itself receives, or the government
mandated rate in effect for the applicable central processing date. In
addition, as provided in Section 30, we will separately bill you a 1%
International Transaction Fee.

26. TRANSACTIONS WITH MERCHANTS.
• Return Policies – If a merchant discloses a policy such as but not
limited to “no returns,” “no refunds,” “as is,” or “all sales final”
you will be bound by that policy when you use your Account to
buy goods or services from that merchant.
• Reservations – When using your Account to make a travel or
lodging reservation, obtain the merchant’s cancellation policy
and follow it if you wish to cancel. If you cancel, obtain the
merchant’s cancellation number that is required to be provided to
you. The merchant may charge you for a cancelled transaction
7

06/25/2021 5:06 PM

